U.S. Department of                                    The Inspector General           Office of Inspector General
Transportation                                                                        Washington, D.C. 20590
Office of the Secretary
of Transportation

November 10, 2004

The Honorable John McCain
Chairman
The Honorable Ernest Hollings
Ranking Member
Committee on Commerce, Science
 and Transportation
United States Senate
Washington, DC 20510

Dear Chairman McCain and Senator Hollings:

By letter dated November 24, 2003, you requested we assess a matter regarding
railroad police that arose during the Committee’s consideration of legislation to
reauthorize the Federal rail safety programs. You requested our assessment of the
responsibilities of railroad police, including any additional duties they perform as
railroad employees that may involve enforcing company rules and policies,
whether those duties vary from state to state or from railroad to railroad, and
whether there is any evidence of, or potential for, misapplication of state police
powers when railroad police officers perform non-police duties.

According to the Federal Railroad Administration (FRA), there are more than 5001
railroads in the United States. We coordinated with the Committee Staff to
determine the scope of the assessment requested.            Staff advised that a
concentration on Class 1 railroads and several Class 2 railroads2 would meet the
needs of the Committee. Additionally, we met with United Transportation Union
(UTU) officials who indicated that by conducting our assessment based on the
Class 1 and the Class 2 railroads included herein, our assessment would cover in
excess of 90 percent of their membership. During our coordination meetings with
Committee Staff and UTU officials, we requested specific examples or incidents
that caused concern on the part of union officials regarding the potential for abuse
of railroad police authority3.
1
  The Association of American Railroads reports a total of 554 railroads as of 2002.
2
  Both the Surface Transportation Board and the Association of American Railroads classify railroads in
North America in terms of size as Class 1, 2 or 3, based on annual operating revenue, adjusted for inflation.
3
  Appendix A details the scope and methodology of our review.

Report No. CC-2004-013
                                                                                                           2



We met with officials of UTU who identified, and provided information about, six
specific incidents contributing to its concern about the use of rail police. Three of
those incidents involve situations where police officers allegedly participated in
illegal or improper conduct. The three other incidents involved situations where
the UTU questions the appropriateness of using railroad police for non-law
enforcement related activities on behalf of management. The six reported
incidents allege, in brief, the following on the part of railroad police:

      1.   Potential misconduct
      2.   Heavy-handed tactics
      3.   False accusation and intimidation
      4.   Inappropriately used to deliver administrative notices for management
      5.   Inappropriately used to investigate time and attendance issues
      6.   Inappropriately used to conduct surveillance of injury claimants

Results in Brief

• Law Enforcement Authority of Railroad Police Derives from the States: Rail
  police are railroad employees who are commissioned under state laws to
  exercise law enforcement authority (e.g., firearms carriage, arrest authority).
  Under Federal law and regulations, officers may perform rail-related law
  enforcement duties in states other than those where they hold a state
  commission, provided that the employing railroad carrier owns property in
  those states and sends a notice to the state commissioning authorities. Federal
  law and regulations defer to state law to define the powers and duties of
  railroad police officers within each state.4

    In briefing Committee Staff, we discussed our investigation of cases involving
    individuals who fraudulently obtained state commissions as police officers of
    fictitious railroads (or ones existing only on incorporation papers), in order to
    circumvent state firearms carriage laws and for other illicit purposes. We have
    several ongoing investigations into such scams. We note, however, that none




4
 Title 49, Code of Federal Regulations, Part 207.5 states, “(c) The authority exercised under this part by an
officer for whom the railroad has provided notice in accordance with Sec. 207.4 shall be the same as that of
a railroad police officer commissioned under the laws of that state.
(d) The railroad police officer's law enforcement powers shall apply only on railroad property, except that
an officer may pursue off railroad property a person suspected of violating the law on railroad property, and
an officer may engage off railroad property in law enforcement activities, including, without limitation,
investigation and arrest, if permissible under state law.”



Report No. CC-2004-013
                                                                                     3


      of these cases involve any involving wrongdoing on the part of actual railroad
      police officers5.

• Caseloads Comprised of Conventional Police and Employee Matters: To
  determine the types of cases comprising railroad police caseloads, we surveyed
  the railroads. Data provided reflects that of 136,808 total cases/incidents for
  2003, a railroad employee was the subject of 975 cases (0.71%). The railroads
  reported that of those 975 employee cases, 309 were handled administratively
  and 51 resulted in prosecution. While the data shows cases/incidents involving
  railroad employees to be less than 1%, this still amounted to 975 such cases in
  2003 alone, which is a significant number of employee-related cases.

      Additional survey data provided by railroads for 2003 reflects that 96% of the
      reporting railroads’ 1,508 arrests/prosecutions involved four categories of
      crime: trespassing (66%), burglary (12%), vandalism (10%), and theft (8%).

• Some Employee Complaints Raise Serious Issues About Railroad Police:
  Three of the six incidents brought to our attention by the UTU involve issues
  where police officers allegedly participated in unlawful or improper conduct,
  such as illegal wiretapping, abuse of arrest authority, and heavy-handed
  interview tactics. We found in one of these instances that railroad police may
  have violated Federal eavesdropping laws; however, the incident occurred ten
  years ago, outside the five-year statute of limitations.6

      The three other incidents involve situations where the UTU questioned the
      appropriateness of using railroad police for non-law enforcement related
      activities on behalf of management, such as investigating time and attendance
      issues, delivery of administrative notices to employees, and conducting
      surveillance of injury claimants.

      For some of the instances we reviewed, railroad police involvement appeared
      to be warranted, while other circumstances did not reflect an appropriate,
      prudent application of police resources. Across all levels of law enforcement,
      the actions of officers exercising police powers are subject to scrutiny on a
      situational, case-by-case basis. Based on our review of the incidents reported,
      we have some observations as to how railroads can strengthen their programs
      with respect to handling cases involving employees and complaints about their
      police officers.

      First, if railroad police investigate employees, particularly for non-criminal
      matters, they can benefit from having clear policy and procedures to guide
      such investigations. Secondly, a formalized internal affairs function, having its
5
    See Appendix B for additional information.
6
    We have summarized each reported incident beginning on page 8 of this letter.

Report No. CC-2004-013
                                                                                  4


   own set of procedures, is critical to assuring straightforward, objective
   investigation of allegations made against railroad police officers. However, as
   reflected in one case example involving Amtrak Police, neither the existence of
   employee procedures nor an internal affairs program assures appropriate, fair
   conduct by police officers. This underscores that there is no substitute for
   sound judgment on the part of officers, with effective day-to-day police
   management. Based on the circumstances of the Amtrak case addressed
   below, we recommend that the President of Amtrak refer this case to Amtrak’s
   Inspector General for review, along with an assessment of the adequacy of the
   Amtrak Police employee incident policy/procedures and internal affairs
   program.

   Our observations regarding employee procedures and internal affairs functions
   are further discussed as follows:

   a) Railroad Police Investigative Procedures for Employee Cases: Seven of
      the nine railroad police departments we surveyed—to include the four
      largest railroads in the country—reported they did not have specific policy
      and procedures for investigations of railroad employees. Only Amtrak and
      Canadian National reported having such policy/procedures in place. In that
      the data provided for 2003 shows 975 employee cases conducted by the
      railroads—not an insignificant number—we consider it important for
      railroad police to have internal procedures that distinguish investigative
      techniques in employee investigations. For example, in non-criminal
      investigations, Canadian National policy ensures union representation in
      accordance with their collective bargaining agreement during police
      interviews of employees, if requested.

       The statutes we reviewed are silent with respect to the authority of railroad
       police to investigate administrative (non-criminal) matters. In our view, if
       railroad police departments are going to conduct administrative
       investigations involving employees, specific guidelines for the conduct of
       such investigations are important in promoting fair, equitable, and impartial
       investigative practices.

   b) Internal Affairs Programs: In our experience, a traditional method to
      address alleged abuse of authority or other misconduct by law enforcement
      professionals is the establishment of an internal affairs division or similar
      program. Accordingly, we sought to determine if the surveyed railroads
      had such a program. Seven of the nine surveyed railroads reported they
      have an internal affairs division or similar program to investigate
      allegations against railroad police officers. The two railroad police



Report No. CC-2004-013
                                                                                                          5


         departments without an internal affairs unit, Florida East Coast and Indiana
         Harbor Belt, are the smallest departments surveyed7.

         As reflected in the case example below involving Amtrak, oversight of
         railroad police internal affairs elements is necessary to ensure they remain
         objective and credible. Strong oversight can be provided by railroad police
         senior management, and, in addition, by upper management of the railroad.
         With respect to Amtrak, its Inspector General can provide an added level of
         oversight for matters involving alleged improprieties on the part of Amtrak
         Police. In addition, throughout law enforcement, in cases involving alleged
         abuse of civil rights by police, the U.S. Department of Justice may
         intervene.

Background on Railroad Police
In 1865, four years before the completion of the transcontinental railroad, railroad
police were first authorized in the state of Pennsylvania. The Railroad Police Act
of 1865 authorized the governor of the state to appoint railroad police officers, and
gave statewide authority to these officers. Other states followed Pennsylvania’s
example.

As a result, the appointment, commissioning, and regulation of rail police have
historically been state matters8. State statutes are not uniform, so railroad police
had to be commissioned in each state where they could work.

The first Federal action dealing with rail police occurred with the passage of the
Amtrak Improvement Act of 1976, and a 1979 amendment, which essentially
provides that an Amtrak police officer could exercise police powers in any state,
provided he was commissioned in one state.

Adopting a similar approach with respect to private railroads, Congress
streamlined the private railroad police system with the passage of Section 1704 of
the Crime Control Act of 1990. The Crime Control Act authorized the Secretary
of Transportation to promulgate regulations empowering a railroad police officer
commissioned in one state to perform law enforcement duties in every jurisdiction
where the employing rail carrier owns property to protect:

    (1) employees, passengers, or patrons of the rail carrier;
    (2) property, equipment, and facilities owned, leased, operated, or maintained
        by the rail carrier;
7
  In our experience, smaller police departments do not have the resources, or the volume of complaints, for
a dedicated, separate “Internal Affairs” unit, instead relying on the management structure of the department
for primary oversight and to handle internal affairs issues.
8
  In Canada, federal and provincial law regulates railroad police.

Report No. CC-2004-013
                                                                                                       6


     (3) property moving in interstate or foreign commerce in the possession of the
         rail carrier; and
     (4) personnel, equipment, and material moving by rail that are vital to the
         national defense.

In 1993, under authority delegated from the Secretary, FRA promulgated
regulations implementing the Crime Control Act.9 These regulations permit
railroad police officers commissioned in one state to perform their duties in states
where the rail carrier owns property, if the employing rail carrier submits a notice
to each state in which the railroad police officer shall operate.

FRA regulations also provide that state law governs the authority exercised by
railroad police officers under the regulations. They provide that their authority
“shall be the same as that of a railroad police officer commissioned under the laws
of that state,” and…“may engage off railroad property in law enforcement
activities, including, without limitation, investigation and arrest, if permissible
under state law.”10 The FRA regulations contain no reference to railroad police
investigating railroad employees.

Summary of State Commissioning Authority Statutes

We reviewed 21 railroad police state statutes.11             These states contain
approximately 58% of the nation’s approximately 142,000 track-miles. The state
railroad police statutes we reviewed generally provide that a state official may
commission railroad employees as railroad police officers.12 In general, railroad
police officers have the authority to carry firearms, make arrests, and investigate
crimes on railroad property or against railroad passengers and employees.

Most state statutes require law enforcement training, and many require
background checks. However, in practice, all Class 1 railroads reported they
conduct extensive background checks on police applicants, and all have previous
police academy training or attend as a condition of employment. Some states
explicitly permit railroad police officers to pursue suspects or make investigations
off railroad property.


9
  Title 49 C.F.R., Part 207.
10
   Title 49 C.F.R., Part 207-5(c) and (d).
11
    We reviewed 21 state railroad police statutes for Arizona, California, Florida, Illinois, Kansas,
Minnesota, Missouri, Nebraska, Nevada, New Jersey, New Mexico, New York, North Carolina, North
Dakota, Ohio, Pennsylvania, South Carolina, Tennessee, Texas, Virginia, and Washington. See
Appendix C for details of the legal framework and summary of the railroad police statutes we reviewed.
12
   State statutes employ several titles, such as “railroad police officer,” “railroad policeman,” “police
agent,” “peace officer,” or “deputy state sheriff.” For simplicity’s sake, we will use the term “railroad
police officer.”

Report No. CC-2004-013
                                                                                                       7


Additionally, in briefing Committee Staff, we discussed our investigation of cases
involving individuals who fraudulently obtained state commissions as police
officers of fictitious railroads (or ones existing only on incorporation papers), in
order to circumvent state firearms carriage laws and for other illicit purposes. In
one ongoing case in California, three individuals were indicted for fraudulently
obtaining state commissions as railroad police officers and subsequently issuing
traffic citations to members of the public, who were directed to pay the citations
via mail to a post office box. To date in that case, one defendant pled guilty and
was sentenced to 15 months imprisonment, followed by three years supervised
release; judicial action remains pending for the two other defendants. We have
several ongoing investigations into such scams. We note, however, that none of
these cases involve any wrongdoing on the part of actual railroad police officers.

Summary of Data on Railroad Police Cases

In 2003, the reporting railroads generated 136,808 total cases or incidents13, of
which 18,699 resulted in prosecution. During our presentation to Committee Staff
of our preliminary findings, Staff expressed interest in determining the types of
law enforcement activity that railroad police officers were conducting. We then
conducted a follow-up survey of the railroads to determine the categories of
offenses for arrests and/or prosecution.

Pertinent data provided by responsive railroads14 reflects that for 2003, 96% of
1,508 arrests and/or prosecutions reported involved conventional police/security
matters, e.g., trespassing (993=65%), burglary (176=12%), vandalism (151=10%),
and theft (113=8%). The remaining 4% of reported arrests/prosecutions in 2003
included interference with rail operations, illegal dumping, disorderly conduct,
drugs, assault, public intoxication, and arson.

Of the 136,808 total cases/incidents reported for 2003, a railroad employee was
the subject of 975 cases (0.71%). The railroads reported that of those 975
employee cases, they handled 309 administratively15 and 51 resulted in
prosecutions16. The railroad data provided reflects that no action was taken for
419 employee cases, and we could not determine whether any action was taken in


13
   The terms “case” and “incident” are used interchangeably and refer to any matter that resulted in the
railroad police department generating a report in their police management reporting system.
14
   Data from the follow-up survey does not include CSX, BNSF, UP or Amtrak, as these railroads did not
provide arrest/prosecution categorization data sufficiently responsive to the survey instrument.
15
   Administratively handled refers to internal company disciplinary proceedings to include disciplinary
hearings, reprimands, suspensions and terminations.
16
   This figure, encompassing all categories of cases, includes 46 instances where an incident resulted in
both prosecution and administrative action.



Report No. CC-2004-013
                                                                                                                8


      the balance of 196 cases due to an inability on the part of Norfolk Southern’s data
      management system to track those results.

      Figure 1 below provides a railroad-by-railroad summary data comparison of
      incidents/cases, prosecutions, and employees.

               Figure 1. Total Cases vs. Employee Cases in 2003 Reported to OIG
                                 by the Surveyed Railroads17

Railroad                        Railroad       Total           Total           Employees        Cases on        Employee
                                 Route       Incidents/     Prosecutions                       Employees       Prosecutions
                                 Miles18       Cases
CSX                               19,181       40,000            1,955            33,000           124               1

UNION PACIFIC                     27,388       34,138           10,24519          49,000           226               11

AMTRAK                           23,00020      24,027            2,142            20,076           182               25

NORFOLK SOUTHERN                  17,292       17,532            1,254            28,160           196               0

CANADIAN PACIFIC                  1,687         7,995              77              3,801            6                0

BURLINGTON NORTHERN               24,674        5,748            2,615            36,888           146               13
SANTA FE

INDIANA HARBOR BELT                 54          4,362              16              745              91               0

CANADIAN NATIONAL                 6,016         2,317             250              6,700            4                1

FLORIDA EAST COAST                 351           689              145              768              0                0

           Total                              136,808           18,699           179,138           975               51

      Specific Incident Summary

      Information provided by United Transportation Union (UTU) officials included
      reports of six specific incidents. These incidents were provided as examples of
      railroad police activity that caused UTU concern about using railroad police for
      management activities. We requested, obtained, and reviewed official railroad
      police reports or responses concerning those incidents. After briefing our

      17
         See Appendix D for more detailed information on respondents to the assessment survey instrument.
      18
         Route (or road) miles refer to the rail system owned/operated by the railroad and do not include mileage
      for more than one track, e.g., double tracking. Mileage figures for Class 1 railroads were obtained from the
      Association of American Railroads. Figures for Florida East Coast, Indiana Harbor Belt, and Amtrak were
      obtained from their websites.
      19
         Union Pacific reported both arrests and prosecutions, not distinguishing between the two fields.
      20
         Amtrak owns 653 route miles, but operates on 23,000 system-wide route miles through track use
      arrangements with freight railroads.

      Report No. CC-2004-013
                                                                                                        9


preliminary findings to Committee Staff in February 2004, the UTU was asked to
provide any additional examples of incidents. No additional examples were
provided. However, given the total number of railroad employees, and the
absence of a formal mechanism at that time for the union to collect complaints,
there is a strong likelihood that incidents such as these have gone unreported.21

Three of the six incidents brought to our attention by the UTU involve issues
where railroad police officers allegedly participated in illegal or improper conduct.
The three other incidents involved situations where the UTU questions the
appropriateness of using railroad police for non-law enforcement related activities
on behalf of management. We concluded that, in certain instances, railroad
management did not exercise appropriate, prudent judgment in utilizing police
resources. Conversely, some of the incidents appeared to be an appropriate use of
police resources given the possible criminal offenses being investigated. In any
event, the incidents described below highlight the importance of railroad police
having in place (a) formal guidelines for conducting employee investigations, and
(b) an internal affairs function for investigating misconduct allegations against
railroad police officers.

The railroad police chiefs were asked whether they expected their special agents to
conduct non-criminal employee investigations of the nature, such as those the
UTU reported. In summary, their responses indicated that any requests by railroad
management for assistance involving an investigation of an employee in a non-
criminal matter was out of the ordinary and very infrequent. One chief of police
responded that it was not a common practice and he does not support the
utilization of railroad police for investigation of employees in non-criminal
matters.

The reported incidents are summarized, by allegation, as follows:

• Potential Misconduct by Railroad Police: It was alleged that in 1994, a
  Florida East Coast Railway chief of railroad police engaged in possible illegal
  wiretapping or eavesdropping of employee telephone calls.

     Based on Florida East Coast Railway (FECR) responses, we found that in
     August 1994, FECR received an anonymous letter alleging that one of its
     roadmasters was taking kickbacks from a contractor used by FECR to pave

21
   We also received a communication from a vice president of the Transportation Communications
International Union, AFL-CIO, who stated, “It has been my experience that these officers on the whole are
good hard working employees. Many of them, if not all, are subject to close scrutiny under state and local
police agencies, as they must obtain police commissions. I do know that some [railroad specialty] crafts
have taken issue with these employees being used to deliver discipline notices or accompanying those who
have delivered them. I do not believe that this rises to the level of abuse.”

Report No. CC-2004-013
                                                                                 10


   various grade crossings. Based on the legal advice received from FECR
   counsel, in the latter part of 1994 the former chief of police had a recording
   device placed for approximately two days on the business telephone extension
   line the roadmaster used. The former police chief testified during litigation
   that he listened to those portions of the recording that were non-personal. He
   further testified that this was the only instance where he had a
   listening/recording device placed on a phone line. As described, this may have
   violated Federal criminal law (18 USC 2511), albeit a ten-year old violation
   which is beyond the five-year statute of limitations. While this may have been
   a violation of Federal and/or state law, no criminal proceedings were initiated
   to our knowledge.

• Heavy-Handed Tactics: In 2003 at Penn Station in Philadelphia, Amtrak
  Police arrested an Amtrak conductor for allegedly teasing an Amtrak police
  dog. The conductor advised as follows: He had been on duty for an Amtrak
  trip from New York to Philadelphia and had a couple hours off-duty before the
  return trip to New York when he met a railroad police officer with a police
  dog. After the officer greeted him, the conductor made a vocal greeting to the
  dog, by saying “woof.” The officer appeared to take offense at this, and five
  minutes later, when the conductor was on break passing time by playing a
  musical horn in a waiting area at the train station, the same Amtrak Police
  officer arrived with five or more other officers asserting that the conductor had
  intimidated the officer’s dog. The event escalated, with Amtrak police
  arresting the conductor. The conductor, who is of diminutive stature and is
  reportedly afflicted with cerebral palsy, felt Amtrak Police employed heavy-
  handed tactics and abused its arrest authority.

   Amtrak police records reflect the following: Amtrak police arrested the
   conductor for disorderly conduct, resisting arrest, and taunting/teasing a police
   working dog (a felony), in violation of Pennsylvania state statutes. The records
   we reviewed reflect that the Amtrak officer had advised the conductor about
   the dangers to the public of taunting a working police dog and informed him of
   the Pennsylvania statute prohibiting taunting a working police dog. The
   conductor repeatedly responded, “Chill out,” and proceeded to an employee
   gym area. The Amtrak officer, along with two other officers, approached the
   conductor to obtain identification information, at which time the conductor
   yelled profanities at the officers. He was told to calm down and cooperate or
   he would be arrested. He became disorderly and was arrested. He reportedly
   refused to be handcuffed and placed his hands in front of his body.

   The criminal charges were dismissed by the Court. As reflected in the Court
   transcript, the judge considered the incident to not warrant criminal
   prosecution, stating “[the conductor] ticked-off the officer, call it what it is.

Report No. CC-2004-013
                                                                                   11


   This case is discharged, all of this.” The conductor then faced a disciplinary
   hearing and was found in violation of five specific company policies, to
   include “Boisterous conduct” and “Failing to be polite, considerate and
   respectful of each other.” He was subsequently terminated and appealed,
   ultimately resulting in reduction to a 60-day suspension with a requirement that
   he attend anger management training.

   Amtrak Police conducted an internal affairs investigation, which did not
   sustain the conductor’s allegation of abuse by the involved officers. The
   investigation concluded that, “although arresting [the conductor] may not have
   been the best course of action from a corporate standpoint and in light of the
   police department’s Customer Oriented Policing Philosophy, the officer was
   within his legal rights to make the arrest.” The sole recommendation from the
   internal affairs investigation was that the arresting officer be advised that
   contacting an Amtrak Police supervisor to assist would have been appropriate
   in this situation.

   In cases involving employees, railroad police (not unlike agencies such as ours
   in the Inspector General community) have leverage and alternatives for action
   available to them by virtue of the individual’s employment. The Amtrak
   Police policy on employee cases affords officers considerable discretion in
   deciding whether to handle matters involving employees administratively or
   criminally, and, per our review, lacks clear guidance for its officers on
   handling employee incidents. Specifically, the Amtrak Police policy includes
   the following: “Company Rule violations, or other irregularities observed by
   Amtrak Police Officers during the regular course of duty, but not constituting
   criminal violations or conflicts of interest, will be reported to and dealt with by
   management.” In this instance, the judgment of the responding officers was to
   arrest the conductor. This case is illustrative of how, irrespective of policy,
   there can be no substitute for sound judgment on the part of law enforcement
   officers, along with effective day-to-day police management.

   We can understand how the conductor, along with the union, viewed the
   actions of Amtrak Police as heavy-handed. Based on the nature of the
   circumstances in this matter, we recommend that the President of Amtrak refer
   this case to Amtrak’s Inspector General for review, to include (a) examining
   the propriety of the officers’ actions and the quality of the internal affairs
   investigation, including its depth, completeness, and objectivity; and (b)
   rendering an overall assessment of the adequacy of the Amtrak Police
   employee incident policy/procedures and internal affairs program.

• False Accusation and Intimidation: In 2003, Union Pacific special agents
  allegedly falsely accused a railroad worker (UTU complainant) of a racist act,

Report No. CC-2004-013
                                                                                12


   “hanging a toilet paper mummy in a community locker,” in Texas, thereby
   causing public humiliation and intimidation of the worker. The agents
   reportedly also accused the worker of committing perjury because he denied
   involvement or knowledge in the act, and that they demanded he provide a
   written statement.

   Based on Union Pacific records, we found that a Union Pacific special agent
   received a request for investigation regarding an EEO complaint. A railroad
   employee reported observing a white paper-mache doll with a hangman’s
   noose around its neck hanging in a locker and believed it to be a racist act.
   Police interviewed the locker user (UTU complainant), who expressed that he
   did not construct the doll and that he shared the locker with another employee.
   Subsequently, a second employee, who shared the locker, stated he had made
   the doll as a Halloween decoration several months prior and it had been
   hanging in the locker since that time. The railroad police concluded it was not
   intended as a racist act, and no further action was taken.

   The UTU complainant questioned the officers’ interview tactics, being
   accused, and being required to provide a written statement. While the
   requirement to provide a written statement in an administrative investigation is
   a conventional investigative procedure that we do not find inappropriate or
   unduly burdensome, use of law enforcement resources to conduct EEO
   investigations, on the other hand, does not seem appropriate. We find such
   issues best suited to administrative EEO investigators. At the time of its
   response to our survey, Union Pacific lacked policy and procedures for
   investigation of railroad employees. This case illustrates how railroad police
   policy can delineate employee-related matters for which police involvement is
   merited from situations where police involvement would be inappropriate, e.g.,
   EEO matters.

• Inappropriately Used to Deliver Administrative Notices for Management:
  In 2003, a Union Pacific officer in uniform personally delivered administrative
  notices for alleged absenteeism to employee residences (two separate
  incidents).

   We obtained Union Pacific records and spoke with the Union Pacific Police
   Chief, who stated that such use of railroad police “would be a very poor use of
   our manpower.”       Union Pacific subsequently provided the following
   information after researching the two incidents: The Union Pacific Service
   Unit had requested police assistance because they were not sure they could
   obtain a courier service on short notice over the holiday season. The
   “window” for the subject disciplinary investigation notices was closing and
   management needed to get the notices to the charged parties as soon as

Report No. CC-2004-013
                                                                                 13


   possible. In those instances, the investigation notices were delivered by police
   officers to the employees’ residences, and received by family members, while
   the employees were on duty.

   The UTU expressed that this was traumatic for the employees’ family
   members, advising that their first thought upon seeing a uniformed railroad
   police officer at their door was that their family member had been injured or
   killed in an accident. The UTU also contended that this action violated their
   collective bargaining agreement (CBA) with Union Pacific. Article C-14,
   paragraph 3 of the UTU-Union Pacific CBA, regarding service of disciplinary
   decision notices, states, “If not delivered on Company premises, the decision
   shall be sent by Certified U.S. Mail…to the last known address.” Although the
   CBA is silent on the method of delivery for investigation notices, it seems
   inconsistent to us that a precursor notice of investigation would be served at a
   residence—by railroad police no less—while the decision notice is delivered at
   work or via certified mail.

   We, too, question the appropriateness of using railroad police officers to
   deliver administrative notices on behalf of management. While Union
   Pacific’s Chief of Police gave an after-the-fact characterization of this as a
   poor use of police resources, at the time of its response to our survey, Union
   Pacific lacked police policy/procedures for employee-related issues, such as
   those raised in this situation. This incident further illustrates how railroad
   police policy can identify employee-related matters for which police
   involvement is merited from circumstances under which police involvement
   would be inappropriate.

   Use of Railroad Police to Investigate Time and Attendance Issues: In
   2002, CSX utilized its railroad police to investigate a Florida-based
   yardmaster’s alleged false and misleading statements regarding the
   circumstances of what the yardmaster maintained was an automobile
   breakdown, and subsequent repair, that caused him to miss some work time.
   During an administrative hearing on this case, the investigating CSX police
   officer stated he had conducted similar investigations approximately six times.

   Per CSX records we reviewed, we found that railroad management asked CSX
   police to determine if a railroad employee submitted false documentation to the
   railroad in order to excuse absenteeism. The CSX agent obtained information
   from the repair facility that no repair was done on the employee’s automobile
   and, in fact, the employee had submitted misleading documentation. While
   railroad police may frame this issue as an investigation of a possible fraudulent
   submission of documents, the likelihood of criminal prosecution is remote.
   Given that the CSX special agent had performed similar investigations on


Report No. CC-2004-013
                                                                                                          14


     approximately six occasions, it seems more likely that railroad management at
     this facility came to rely on using the CSX police to perform what in most
     companies, and even government agencies, would be considered a
     management issue involving time and attendance. At the time of our survey,
     CSX Police lacked employee investigative policy and procedures.

• Railroad Police Used for Surveillance on a Worker’s Compensation Case:
  In 2002, a Norfolk Southern police supervisory special agent in Roanoke,
  Virginia, investigated an employee in Binghamton, New York, who claimed an
  on-the-job injury. The Norfolk Southern agent conducted surveillance of the
  employee over the course of three days. During a formal investigation hearing,
  the agent asserted that conducting surveillance was part of his normal job.

     Norfolk Southern records we reviewed reflect that, based on suspicion that the
     employee had submitted a fraudulent claim, the Norfolk Southern Casualty
     Claim Department submitted a formal request for police investigative
     assistance. Norfolk Southern Police assigned a surveillance specialist to
     observe the employee. Police involvement was limited to observations of the
     claimant from a public roadway in an attempt to determine if the claimant was
     actually injured. The railroad subsequently convened a formal investigation
     hearing, included in its internal fact-finding process, based on administrative
     charges that the employee made false and/or conflicting statements relative to
     the reported on-duty injury.

     We consider it an appropriate use of law enforcement resources to investigate
     potentially fraudulent injury claims that can result in large monetary losses to
     the affected railroads.22 It is analogous to investigations we, along with other
     Offices of Inspector General and Federal law enforcement agencies, to include
     the Postal Inspection Service, conduct of potentially fraudulent worker’s
     compensation claims submitted by Federal and Postal employees.
     Nonetheless, as addressed below, railroad police departments such as Norfolk
     Southern can benefit from instituting policy for the conduct of employee
     investigations.

22
    Unlike most American workers, railroad workers are not covered by state no-fault workers’
compensation insurance systems when they are injured on the job. Instead, railroad workers must recover
their losses under the provisions of the Federal Employers’ Liability Act (FELA). Under FELA, an injured
worker negotiates a settlement with the railroad. If the negotiations fail, the worker may file a lawsuit
alleging negligence by the employer to recover losses (GAO Report/RCED-96-199). The costs of FELA
injury compensation are borne by the railroad. As such, there is a strong economic incentive to critically
evaluate employee injury claims and investigate potentially fraudulent claims. We requested information
regarding total annual FELA payments made by the railroads. Most respondents elected to withhold that
information. For those that did provide the information, it was apparent that annual FELA payments are a
large cost to the railroads and, in fact, exceed the entire annual railroad police budgets for those railroads
that responded.

Report No. CC-2004-013
                                                                                  15


Employee Investigation Guidelines & Internal Affairs Functions

In situations where railroad police investigate employees, particularly in non-
criminal matters, we consider it a sound business practice for railroads to have
employee investigative procedures in place, in furtherance of assuring consistency
and fairness of treatment. Seven of the nine railroad police departments we
surveyed, to include the four largest railroads in the country, reported they did not
have a policy and procedures manual providing specific procedures for
investigating railroad employees. In our survey, only Canadian National and
Amtrak reported having such policy in place; for example, in non-criminal
investigations, Canadian National policy ensures union representation (in
accordance with their collective bargaining agreement) during police interviews of
employees, where requested. Involvement of labor union representation in the
development of employee investigative procedures would enhance their
acceptance and likely lead to fewer complaints in the future.

Further, a traditional means of addressing alleged abuse of authority or other
misconduct by law enforcement professionals is the establishment of an internal
affairs division or similar program. As such, we sought to determine if the
surveyed railroads had such a type of program. Seven of the nine surveyed
departments reported they have established an internal affairs unit or similar
program to investigate allegations against railroad police officers. The two
railroad police departments that had not established an internal program to handle
complaints against officers, Florida East Coast and Indiana Harbor Belt, are the
two smallest departments surveyed.

As reflected in the case example involving Amtrak, oversight of railroad police
internal affairs elements is necessary to ensure they remain objective and credible.
Such oversight can be provided by railroad police senior management, and, in
addition, by upper management of the railroad. With respect to Amtrak, its
Inspector General can provide an added level of oversight for matters involving
alleged improprieties on the part of Amtrak Police. In addition, throughout law
enforcement, in cases involving alleged abuse of civil rights by police, the
U.S. Department of Justice may intervene.

Figure 2 below provides a comparative listing identifying whether the reporting
railroads have employee investigative procedures and internal affairs programs in
place.




Report No. CC-2004-013
                                                                                    16


                 Figure 2. Employee Investigative Procedures &
                           Internal Affairs Programs in Place

     RAILROAD                     Railroad Police        Railroad Police Internal
                                  Administrative            Affairs Program
                                  Procedures for
                               Employee Investigations
     AMTRAK                             YES                       YES
     BURLINGTON NORTHERN                NO                        YES
     SANTA FE
     CANADIAN NATIONAL                  YES                       YES
     CANADIAN PACIFIC                   NO                        YES
     CSX                                NO                        YES
     FLORIDA EAST COAST                 NO                        NO
     INDIANA HARBOR BELT                NO                        NO
     NORFOLK SOUTHERN                   NO                        YES
     UNION PACIFIC                      NO                        YES


Concluding Observations

While the data we reviewed indicates that employee cases comprise a relatively
small proportion of railroad police caseloads, there were still 975 cases reported
for 2003 alone, and some of the incidents involving railroad police brought to our
attention did not reflect appropriate utilization of police resources. As illustrated
by several of the cases we reviewed, management use of police officers for non-
law enforcement activities renders railroads susceptible to criticism, as does the
absence of policy/procedures for investigating employees and lack of a formalized
internal affairs function.

In closing, railroads can benefit from ensuring their police operations include the
following:

• Definitive guidance in place governing the conduct of employee investigations.
  Such guidance is important from the standpoint of assuring uniformity,
  consistency, and fairness of treatment. Significantly, seven of the nine
  railroads we surveyed did not have such policy/procedures.

• Policy delineation of employee-related matters for which police involvement
  would be merited from circumstances under which police intervention would
  be inappropriate. Several instances we examined did not, in our view,
  represent an appropriate use of police resources, and were better suited to
  management action.

• A formalized internal affairs program for investigating alleged improprieties
  and misconduct on the part of railroad police officers. This function should be


Report No. CC-2004-013
                                                                                   17


   a cornerstone in every law enforcement organization’s system of internal
   controls for assuring integrity and quality of service. Moreover, where
   effectively utilized, internal affairs functions help preclude perceptions of
   cover-up on the part of the organization. We do note that only two of the nine
   railroads surveyed lacked internal affairs programs.

• Collection and maintenance of accurate and sufficiently comprehensive police
  activity data, to include information pertaining to cases involving railroad
  employees and internal affairs investigations. Some, but not all, of the
  surveyed railroad police departments provided us with useful, complete data on
  their law enforcement and employee-related activities.          Retention of
  meaningful and reliable data is important for historical, trend analysis, and
  quality assurance purposes. Those railroad police departments with good data
  systems could serve as models for their counterparts.

Lastly, as previously addressed, we believe the circumstances and associated
issues surrounding the arrest of the Amtrak conductor warrant further examination
from outside the Amtrak Police Department. Accordingly, we recommend that the
President of Amtrak refer this case to Amtrak’s Inspector General for review, to
include the following: (a) an examination of the propriety of the officers’ actions
and the quality of the internal affairs investigation, including its depth,
completeness, and objectivity; and (b) an overall assessment of the adequacy of
the Amtrak Police employee incident policy/procedures and internal affairs
program.

If I can answer any questions or be of further assistance in this or any other matter,
please feel free to contact me at 202-366-1959, or my Deputy, Todd J. Zinser, at
202-366-6767.


Sincerely,


Kenneth M. Mead
Inspector General

Enclosures (4)
Appendices




Report No. CC-2004-013
                                          APPENDIX A

                                    Scope and Methodology

Our assessment included a review of applicable state authorizing statutes for railroad
police. We also interviewed representatives of Class 1 railroad police chiefs and a
representative of the Association of American Railroads (AAR). They provided
information regarding the duties, training, and professionalism of railroad police
officers employed by major railroads today. In addition, we interviewed UTU
officials and a complainant involved with one of the reported incidents, that spoke to
their concerns regarding the use of railroad police as a tool of railroad management to
enforce administrative railroad policies, rather than restricting the role of railroad
police to a purely law enforcement and/or security function.

We also developed and distributed a survey instrument that, based upon coordination
with UTU officials, was sent to nine1 Class 1 and Class 2 railroads that the UTU
indicated would encompass in excess of ninety percent of that union’s membership.
The survey instrument elicited data from the railroads to include:
   • The number of railroad employees;
   • The number of sworn and unsworn railroad police employees;
   • The number of cases in 2003;
   • The number of cases where a railroad employee was the subject of the case;
   • The number of cases prosecuted in 2003;
   • The number of cases with a railroad employee as the subject that were handled
       administratively;
   • Railroad police budget for 2003;
   • Whether the railroad police organization has an internal affairs or similar
       section for handling complaints;
   • Whether they have procedures in place for conducting employee
       investigations;
   • A summation of the states where their officers are commissioned.

Additionally, as we previously mentioned, during our coordination meetings with
Committee Staff and UTU officials we requested specific examples or incidents that
caused concern on the part of union officials regarding the potential for abuse of
railroad police authority. We were provided with six specific incidents. We obtained
official railroad police records and/or responses regarding those incidents, which we
have summarized in this letter.



1
 Survey instruments were sent to Amtrak, Burlington Northern, Canadian National, Canadian Pacific, CSX,
Norfolk Southern, Union Pacific, Florida East Coast Railway, and Indiana Harbor Belt Railway.


Report No. CC-2004-013
                                                                                        2

                                        APPENDIX B

            DOT/OIG Investigations of Non-Legitimate Railroad Police

In briefing Committee Staff, we discussed our investigation of cases involving
individuals who fraudulently obtained state commissions as police officers of
fictitious railroads (or ones existing only on incorporation papers), in order to
circumvent state firearms carriage laws and for other illicit purposes. We have
several ongoing investigations into such scams, which, while not involving
wrongdoing on the part of actual railroad police officers, point to potential
weaknesses in the construction of some state railroad police authorizing statutes.

In one ongoing case in California, three individuals were indicted for fraudulently
obtaining state commissions as railroad police officers and subsequently issuing
traffic citations to members of the public, who were directed to pay the citations via
mail to a post office box. To date in that case, one defendant pled guilty and was
sentenced to 15 months imprisonment, followed by three years supervised release;
judicial action remains pending for the two other defendants.

In another case in Illinois, a group of individuals purchased a building next to a
railway siding. They incorporated a business entity with the word railroad in the
business name and falsely claimed the railway siding belonged to their corporation.
They subsequently began issuing police identification and badges to “employees.”
They held themselves out to the surrounding community as railroad police and used
their status as “off-duty police officers” to obtain security contracts at a public
housing facility.

The Illinois state railroad police authorizing statute, provides that, “In the policing of
its properties any railroad may provide for the appointment and maintenance of such
police force as it may find necessary and practicable to aid and supplement the police
forces of any municipality in the protection of its property and the protection of the
persons and property of its passengers and employees, or otherwise in furtherance of
the purposes for which such railroad was organized. While engaged in the conduct of
their employment, the members of such railroad police force have and may exercise
like police powers as those conferred upon the police of cities.” (610 ILCS 80/2)

The Illinois Police Training Act (50 ILCS 705) created the Illinois Law Enforcement
Training Standards Board (ILETSB). The ILETSB promulgated standards for the
selection and training of employees of law enforcement agencies, and to establish
their qualification to be certified and licensed in the State of Illinois according to the
standards and rules of the Board and the requirements of the Act. The standards
establish mandatory, minimum requirements pertaining to the lack of a criminal



Report No. CC-2004-013
                                                                                      3

history background; and standards applicable to education, mental, moral, ethical, and
physical skills and qualities.

In theory, railroads employing railroad police officers within the State of Illinois are
held to the same standards as local police departments. However, railroad police
officers are not required to be trained by approved ILETSB law enforcement officer
training academies. The law only requires the training and certification of officers
employed by “government entities.” ILETSB reports, however, that many railroads
within the state voluntarily follow the ILETSB standards and submit documentation
showing that their officers meet those standards. Our investigations have found that
the ILETSB does not have procedures requiring confirmation of the legitimacy of the
“employing” railroad.

These investigations also found that Title 49, CFR, Part 207 (issued by FRA) was
often cited on bogus railroad police credentials as their authority to carry firearms
outside their home states.




Report No. CC-2004-013
                                                                                         4

                                            APPENDIX C

                                          Legal Framework

In the mid-1800s, railroads were rapidly expanding throughout the United States and
required police protection in order to prosper, and, in some instances, continue in
business.2 Some railroads formed private police departments, employed city police to
make investigations, or employed armed guards to maintain order among unruly work
crews.3 In the 1850s, several railroads hired the famed private detective Allan
Pinkerton, who, in 1861, foiled a conspiracy to sabotage track between Wilmington
and Baltimore and to assassinate President Lincoln.

Other railroad “detectives” or “special agents,” as they were called, proved less
reputable and reliable, and railroad police were subject to little oversight, training, and
discipline.4 Moreover, private railroad police had no authority off railroad property,
unless they were deputized by the state or cities, which rarely occurred.

States, not the Federal government, enacted laws granting police powers to railroad
police. In 1865, Pennsylvania passed the first railroad police statute—the Railroad
Police Act. The act authorized the governor of the state to appoint railroad police
officers, and gave statewide authority to these officers. Other states followed
Pennsylvania’s example, but, there was, as one commentator put it, “peculiarities and
inconsistencies” between different state statutes.5

Moreover, because commissions were granted by individual states, a railroad police
officer would only possess rail police authority in the state of his commission, not in
each state in which the railroad operated. Some states required residence for rail
police officers, making it difficult to obtain multiple commissions. Thus, when
commissioned railroad police officers were unavailable at the time of an incident,
railroad police officers commissioned in other states would have to resort to citizen’s
arrest or wait for the arrival of a commissioned railroad police officer or a state or
local police officer.6

Analysis of State Laws

Today, most states have enacted railroad police statutes. The statutes are not uniform,
but often contain common elements.


2
  H. S. Dewhurst, The Railroad Police (Charles C. Thomas 1955).
3
  James W. Ely, Jr., Railroad and American Law (University Press of Kansas 2001).
4
  Ibid. pp. 6-7.
5
  The Railroad Police, p. 21.
6
  Federal Railroad Administration, Final Rule, 59 Fed. Reg. 6585 (Feb. 11, 1994).


Report No. CC-2004-013
                                                                                        5

In nineteen (19) states we reviewed, a state official—Governor, Attorney General, the
head of the state police, the Secretary of State, or a state peace officer or criminal
justice commission—is responsible for commissioning railroad police officers. The
only exceptions are Illinois and Minnesota.

In addition, ten (10) of the state statutes require a background check into railroad
police officers before the commission is granted. One of these states background
check consists of a corporate officer attesting to the good moral character of the
applicant; another consists simply of three (3) affidavits from state residents attesting
to the good character of the applicant. Other states may have regulations or policies
requiring background checks.

Twelve (12) state statutes we reviewed require minimum law enforcement training
prior to receiving the commission. Some of these states require the same training
standards as police officers; others require “peace officer” training. Some of the
states delegate the standards to a state commission.

Four (4) states we reviewed immunize the state for unlawful acts of railroad police.
Seven (7) states provide that the railroad shall be civilly liable for the acts or
omissions of railroad police officers.

Each railroad police statute authorizes railroad police to arrest persons for crimes
related to railroad property or passengers. For example, Texas law provides that
railroad police officers:

           “may make arrests and exercise all authority given peace officers under this
           code when necessary to prevent or abate the commission of an offense
           involving injury to passengers and employees of the railroad or damage to
           railroad property or to protect railroad property or property in the custody or
           control of the railroad.”7

Some statutes explicitly permit pursuit or investigation off railroad property. For
example, Missouri law provides:

           “Railroad policemen, while engaged in the pursuit of their purposes in regard
           to violations of the law which occurred on railroad property, shall have in
           every county and city in this state all law enforcement powers which county
           and city peace officers have except for the serving and execution of civil
           process, provided, however, that a railroad policeman shall not apply for or
           serve search warrants.”


7
    Texas Code of Criminal Procedure, Chapter 2, Article 2.121(b).


Report No. CC-2004-013
                                                                                                           6

North Carolina’s Company Police Act is unique in that it authorizes rail police to
make arrests throughout the state for infractions not relating to the property of the
railroad throughout the state.8 This is the only statute we reviewed that grants such
wide authority to railroad police officers.9

The Committee indicated that it is interested in the authority of railroad police officers
to enforce company policies, such as dress codes. None of the state or Federal laws
we reviewed explicitly prohibits this activity. However, we found that North Carolina
considers such behavior a violation of the oath of office to uphold the criminal law.
We did not find any other state with a similar interpretation. We did find that some
states limit the duties that a rail police officer may perform. For example:

        • In Texas, “a railroad peace officer who is a member of a railroad craft may
          not perform the duties of a member of any other railroad craft during a
          strike or labor dispute.”

        • In New York, “no conductor, brakeman, fireman, engineer or other person
          actively engaged in the operation and movement of any train or car or set of
          cars shall be eligible for appointment as a policeman.”

        • In New York, “A person appointed policeman under this section shall not,
          while the appointment is in force, be employed by or perform any service
          for the corporation . . . in any other capacity than that of policeman. . . .”

        • In Missouri, railroad police may not participate “in any accident
          investigation which resulted from personal injury to, or property damage of,
          a third person, if such investigation is conducted away from railroad
          property.”

        • In New Mexico, “such peace officers so appointed shall not have authority
          as such to act or perform any service or to be used as peace officers with
          reference to strikes or labor troubles.”

Federal Laws and Regulations

The Amtrak Improvement Act of 1976 authorized Amtrak to hire “security guards for
purposes of providing security and protection for rail passengers of the Corporation



8
 North Carolina General Statutes, Ch. 74E-6(e) (“Company Police Act”).
9
 Some police forces of state commuter railroads regulated by FRA have general, state-wide police powers.
See, e.g., New Jersey Public Transportation Act of 1979, N.J.S.A 48:3-38.



Report No. CC-2004-013
                                                                                                                       7

[Amtrak] and for rail properties owned by the Corporation.”10 The statute has been
subsequently amended,11 and it now provides that:

         “Amtrak may employ rail police to provide security for rail passengers and
         property of Amtrak. Rail police employed by Amtrak who have complied with
         a State law establishing requirements applicable to rail police or individuals
         employed in a similar position may be employed without regard to the law of
         another State containing those requirements.”12

Essentially, the Act provides that an Amtrak police officer could exercise police
powers in any state, provided he was commissioned in one state.

Congress gave similar interstate authority to private railroad police in the Crime
Control Act of 1990 and a 1994 amendment. These acts authorize a railroad police
officer who is certified or commissioned as a police officer under the laws of any state
to enforce the laws of any jurisdiction in which the rail carrier owns property—to the
extent of the authority of a police officer commissioned under the laws of that
jurisdiction—for the purpose of protecting:

         (1) employees, passengers, or patrons of the rail carrier;
         (2) property, equipment, and facilities owned, leased, operated, or maintained
         by the rail carrier;
         (3) property moving in interstate or foreign commerce in the possession of the
         rail carrier; and

(4) personnel, equipment, and material moving by rail that are vital to the national
defense. 13
10
   Pub. L. 94-555, § 104, 90 Stat. 2615 (1976).
11
   Pub. L. 96-73, §§ 106, 108, 93 Stat. 539, 540 (1979).
12
   49 U.S.C. § 24305(e).
13
   Crime Control Act of 1990, Pub. L. 101-647, § 1704 states:

         “A railroad police officer who is employed by a rail carrier and certified or commissioned as a police
         officer under the laws of any State shall, in accordance with regulations issued by the Secretary of
         Transportation, be authorized to enforce the laws of any jurisdiction in which the rail carrier owns
         property, for the purpose of protecting--

         “(1) the employees, passengers, or patrons of the rail carrier;
         “(2) the property, equipment, and facilities owned, leased, operated, or maintained by the rail carrier;
         “(3) property moving in interstate or foreign commerce in the possession of the rail carrier; and
         “(4) personnel, equipment, and materials moving via railroad that are vital to the national defense, to
         the extent of the authority of a police officer properly certified or commissioned under the laws of that
         jurisdiction.”

In 1994, Congress amended the statute to provide that a railroad police officer could enforce the laws of any
jurisdiction in which the rail carrier owns property to the extent of the authority of a police officer certified or
commissioned under the laws of that jurisdiction. Pub. L. 103-272, Subtitle V, Ch. 261 (1994).


Report No. CC-2004-013
                                                                                                            8


Following passage of the Crime Control Act of 1990, the Federal Railroad
Administration (“FRA”) issued regulations (49 C.F.R. Part 207), under authority
delegated by the Secretary, governing the exercise of police power by railroad police
officers while outside the jurisdiction of their commissions.14

The regulations define a railroad police officer as, “a peace officer who is
commissioned in his or her state of legal residence or state of primary employment
and employed by a railroad to enforce state laws for the protection of railroad
property, personnel, passengers, and/or cargo.”

FRA regulations provide that after a railroad police officer is commissioned by a state
or states, the railroad shall send written notice to appropriate officials of every other
state in which the officer protects the railroad’s property, personnel, passengers, and
cargo. Each railroad must maintain copies of all such notices at a central location
(207.4(b)). Although many state laws require railroads to notify the state upon the
termination of a rail police officer’s employment, FRA regulations do not require the
railroads to notify other states of an officer’s termination.

FRA regulations provide that a railroad police officer acting in a state where he is not
commissioned may enforce only relevant laws for the protection of—

        (1) the railroad’s employees, passengers, or patrons;
        (2) the railroad’s property15 or property entrusted to the railroad for
            transportation purposes;
        (3) the intrastate, interstate, or foreign movement of cargo in the railroad’s
            possession or in possession of another railroad or non-rail carrier while on
            railroad property; and
        (4) the railroad movement of personnel, equipment, and materials vital to the
            national defense.

(207.5(b)-(c)). FRA regulations also provide that the authority exercised under the
regulations shall be the same as that of a railroad police officer commissioned under
the laws of each jurisdiction.

FRA regulations also state that the officer’s law enforcement powers shall apply only
on railroad property, except that an officer may engage off railroad property in “law
enforcement activities, including, without limitation, investigation and arrest, if


14
  59 Fed. Reg. 6587, Feb. 11, 1994.
15
   Under 49 C.F.R. § 207.2(c), “Property means rights-of-way, easements, appurtenant property, equipment,
cargo, facilities, and buildings and other structures owned, leased, operated, maintained, or transported by a
railroad”.


Report No. CC-2004-013
                                                                                     9

permissible under state law” (207.5(d)). Most statutes do authorize railroad police to
make off-property investigations and arrests.

In addition, in 1999 the President signed legislation enabling railroad police officers
to attend the FBI’s National Academy for law enforcement training.16




16
     Pub. L. 106-110 (codified at 42 U.S.C. § 3771).


Report No. CC-2004-013
                                                                            APPENDIX D

                                                                       Railroad Survey Data


                                            (A)             (B)          (C)            (D)             (E)              (F)              (G)                 (H)
RAILROAD                                 Employees        Railroad    Incidents/    Cases on        Employee       Total             Employee              Employee
                                                           Route      Cases18       Employees       Case % of      Prosecutions19    Prosecutions            Cases
                                                           Miles17                                  Total Cases                                            Handled
                                                                                                                                                        Administratively20
INDIANA HARBOR BELT RAILROAD                       745           54         4,362             91         2.086%                 16                  0                  41
COMPANY
FLORIDA EAST COAST RAILWAY                         768          351          689                0        0.000%               145                   0                     0
LLC
CANADIAN PACIFIC (CP) RAILWAY                    3,801         1687         7,995               6        0.075%                77                   0                    2
CANADIAN NATIONAL (CN)                           6,700         6016         2,317               4        0.173%               250                   1                    3
RAILWAY
AMTRAK                                          20,076     23,00021       24,027             182         0.757%              2,142                25                    107
NORFOLK SOUTHERN                                28,160      17,292        17,532             196         1.118%              1,254                 0
CORPORATION
CSX TRANSPORTATION INC                          33,000       19,181       40,000             124         0.310%              1,955                 1                     17
BURLINGTON NORTHERN SANTA                       36,888       24,674        5,748             146         2.540%              2,615                13                    133
FE RAILWAY
UNION PACIFIC RAILROAD                          49,000       27,388       34,138             226         0.662%            10,245                 11                      6

SUMMARY                                       179,138                    136,808             975         0.713%            18,699                 51                    309



     17
        Route (or road) miles refer to the rail system owned/operated by the railroad and do not include mileage for more than one track, e.g., double tracking.
     Mileage figures for Class 1 railroads were obtained from the Association of American Railroads. Figures for Florida East Coast, Indian Harbor Belt, and Amtrak
     were obtained from their websites.
     18
        The terms “case” and “incident” are used interchangeably and refer to any matter that resulted in the railroad police department generating a report in their
     police management reporting system.
     19
        Union Pacific Railroad reported both arrests and prosecutions, not distinguishing between the two fields as requested.
     20
        Administratively handled refers to internal company disciplinary proceedings to include disciplinary hearings, reprimands, suspensions and terminations.
     21
        Amtrak owns 653 route miles, but operates on 23,000 system-wide route miles through track use arrangements with freight railroads.




     Report No. CC-2004-013
